HHS/OIG, Audit -"Superfund Financial Activities at the National Institute of Environmental
Health Sciences for Fiscal Year 2005,"(A-04-06-01023)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Superfund Financial Activities at the National Institute of Environmental
Health Sciences for Fiscal Year 2005," (A-04-06-01023)
May 8, 2006
Complete
Text of Report is available in PDF format (217 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether costs recorded by National Institute
of Environmental Health Sciences (NIEHS) were allowable, allocable, and reasonable in accordance
with applicable laws and regulations.  The NIEHS Superfund costs recorded for the period
from October 1, 2003, through September 30, 2004, were allowable, allocable, and reasonable.  NIEHS
obligated about $80.4 million and disbursed about $80.2 million in Superfund resources.  We
also determined that NIEHS took appropriate action to ensure that its Superfund grantees
submitted required audit reports.  Since this report contained no recommendations, no
response was necessary.